            valuation


             eport

     DOD COMPLIANCE WITH HAZARDOUS WASTE LAWS
           IN THE U.S. EUROPEAN COMMAND

Report No. D-2001-009               November 14, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this evaluation report, visit the Inspector General,
  DoD Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support Directorate
  at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Evaluations

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                 OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@dodig.osd.mil; or by writing to
  the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The identity of
  each writer and caller is fully protected.




Acronyms

DRMO                  Defense Reutilization and Marketing Office
DRMS                  Defense Reutilization and Marketing Service
DUSD(ES)              Deputy Under Secretary of Defense for Environmental Security
EEA                   DoD Environmental Executive Agent
EUCOM                 U.S. European Command
OEBGD                 Overseas Environmental Baseline Guidance Document
                        Office of the Inspector General, DoD
Report No. D-2001-009                                                  November 14, 2000
   (Project No. D1999CB-0002.02)

                DoD Compliance with Hazardous Waste Laws
                     in the U.S. European Command

                                   Executive Summary

Introduction. This report is one in a series that discusses the DoD overseas
environmental program at DoD facilities in Europe. The Defense Reutilization and
Marketing Service provides international hazardous waste removal services for DoD
components overseas. DoD Instruction 4715.5, “Management of Environmental
Compliance at Overseas Installations,” April 22, 1996, directs DoD Environmental
Executive Agents to consult with the U.S. European Command on significant issues
arising from DoD environmental policy. The U.S. European Command coordinates and
approves implementation of DoD Instruction 4715.5 by the DoD Environmental
Executive Agents. DoD Environmental Executive Agents determine the extent host
nation standards are generally in effect for host-government and private sector activities
to develop environmental final governing standards guidance for a host nation. When
developing final governing standards guidance, the DoD Environmental Executive
Agents do not include host nation procedural and administrative requirements, such as
permits, fines, and other sanctions as applicable environmental standards. The Deputy
Under Secretary of Defense for Environmental Security selected the Commander in
Chief, U.S. Naval Forces Europe, as the DoD Environmental Executive Agent for Italy.

Objectives. The overall evaluation objective was to determine the status of DoD
environmental program requirements at overseas military facilities. Specifically, we
assessed U.S. military compliance with governing environmental standards in foreign
countries. Additionally, we assessed whether the hazardous material and hazardous waste
programs met regulatory requirements and command needs in Europe. We also reviewed
the management control program as it related to DoD environmental requirements and the
management of hazardous material and hazardous waste in Europe. This report discusses
compliance with governing standards in Europe. Inspector General, DoD, Report No. 99-
251, “The Army Environmental Program in Germany,” September 15, 1999, discusses
the status of environmental requirements and compliance with governing standards in
Germany. Inspector General, DoD, Report No. D-2000-157, “DoD Hazardous Waste
Management and Removal Services in the U.S. European Command,” June 28, 2000,
discusses meeting command needs for hazardous material and hazardous waste in
Europe.

Results. DoD components and Defense agencies complied with country-specific
environmental final governing standards when operating DoD facilities in the U.S.
European Command. Management controls were adequate in that we identified no
material management control weaknesses in the administration of DoD environmental
programs in Europe. However, Italy requires compliance with procedural (permitting)
and administrative (reporting) waste management laws. Italian regulators charged DoD
civilian personnel with violations of Italian hazardous waste procedural (permitting) and
administrative (reporting) laws. Although the DoD Environmental Executive Agent
provided interim guidance for permitting and reporting issues, the Agent did not provide
interim guidance for responding to enforcement actions. As a result, Italian regulators
fined DoD civilian personnel, threatened to shut down disposal activities at the Aviano
field office, and threatened to sequester the property of the DoD Italian hazardous waste
contractors. For details of the evaluation results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Commander in Chief, U.S.
Naval Forces Europe, issue revised environmental standards for Italy that resolve
procedural and administrative compliance issues and establish procedures for responding
to host nations that seek and enforce procedural and administrative environmental
requirements.

Management Comments. The Commander in Chief, U.S. Naval Forces Europe, stated
that they have implemented a strategy to minimize conflicts between Italian procedural
and administrative requirements and DoD policy. This strategy will be reflected in the
revised Final Governing Standards for Italy. The Commander in Chief, U.S. Naval
Forces Europe, also stated that they have distributed procedures for responding to host
nation enforcement action and plan to formally issue those procedures as Environmental
Executive Agent guidance to U.S. forces operating in Italy. The complete text of
management comments is in the Management Comments section.

Evaluation Response. The Commander in Chief comments were responsive. We asked
for the date of publishing the Final Governing Standards for Italy. They responded that
Components met during late October to discuss Final Governing Standards review
procedures and timelines. The Final Governing Standards are projected for completion
by April 2001. Publication of the Final Governing Standards is important to effective
operations by field operating units.




                                           ii
Table of Contents
Executive Summary                              i
Introduction
     Background                               1
     Objectives                               3

Finding
     Compliance with Italian Procedural and
       Administrative Hazardous Waste Laws    4

Appendixes
     A. Evaluation Process
          Scope                               10
          Methodology                         10
          Management Control Program          11
          Prior Coverage                      11
     B. Report Distribution                   12

Management Comments
     Department of the Navy                   15
Background
    This report is one in a series that discusses the DoD overseas environmental
    program at DoD facilities in Europe. Our first report, Inspector General, DoD,
    Report No. 99-251, “The Army Environmental Program in Germany,” September
    15, 1999, discusses the status of environmental program requirements and
    compliance with governing standards at DoD facilities in Germany. Inspector
    General, DoD, Report No. D-2000-157, “DoD Hazardous Waste Management and
    Removal Services in the U.S. European Command,” June 28, 2000, discusses
    meeting command needs for hazardous material and hazardous waste at DoD
    facilities in Europe. This report discusses compliance with governing standards at
    DoD facilities in Europe.

    Managing Hazardous Waste Removal Overseas. DoD assigned the hazardous
    waste disposal mission to the Defense Reutilization and Marketing Service
    (DRMS), a primary field office of the Defense Logistics Agency under the
    Defense Logistics Support Command. With headquarters in Battle Creek,
    Michigan, DRMS has more than 2,600 employees worldwide in 39 states and
    14 foreign countries. The actual disposal mission takes place at the 113 field
    offices, called Defense Reutilization and Marketing Offices (DRMOs), located at
    or near U.S. military installations worldwide. DRMOs provide safe, temporary
    storage of hazardous waste during the disposal cycle. DRMS provides contracting
    services for hazardous waste disposal in Europe and provides oversight for those
    contractors. Contracting officers heed the increasingly stringent governing host
    nation laws and regulations when developing hazardous waste disposal contracts.

    When the Services turn in hazardous waste, DRMS issues delivery orders under
    the hazardous waste contract for removal of the waste. DRMS International,
    located in Wiesbaden, Germany, manages operations for all DRMOs in Europe
    and provides removal services for hazardous waste generated by U.S. military
    installations. The U.S. European Command (EUCOM) has about 109,000
    permanently assigned military personnel that conduct a full spectrum of military
    operations. Contingent operations and activities generate sizable quantities of
    hazardous waste. Proper management and disposal of DoD hazardous waste, in
    an environmentally sound manner, is an important segment of military operations.
    Defense components and Defense agencies that implement the DoD hazardous
    waste program use DoD environmental standards and affect relations with foreign
    nations.

    Managing Compliance in the European Command. DoD Instruction 4715.5,
    “Management of Environmental Compliance at Overseas Installations,” April 22,
    1996 (Instruction 4715.5), prescribes the policy, responsibilities, and procedures
    for DoD components and unified combatant commands. EUCOM coordinates
    and approves implementation of Instruction 4715.5 by the DoD Environmental
    Executive Agents (EEAs) in their geographic area of responsibility. EEAs consult
    with EUCOM on significant issues arising from the DoD environmental policy.
    EUCOM also resolves disputes between EEAs, DoD components, and Defense
    agencies. DoD components (U.S. Army, Europe; U.S. Naval Forces, Europe; and
    U.S. Air Forces, Europe) execute EEA responsibilities that include:




                                      1
                 •   ensuring compliance with applicable environmental standards, and

                 •   issuing and reviewing environmental governing standards.

        When developing environmental governing standards guidance, EEAs identify
        applicable host nation standards and compare those standards with DoD baseline
        guidance for overseas facilities. EEAs identify applicable host nation
        environmental standards based on published host nation law, transnational1
        enforceable standards, and applicable international agreements. Also, EEAs
        determine the extent host nation standards are adequately defined and generally in
        effect and enforced against host-government and private sector activities. EEAs
        then publish country-specific environmental final governing standards guidance.
        Furthermore, EEAs should consult with host-nation officials on environmental
        issues to maintain effective cooperation on environmental matters. The Services
        and DRMS International are required to comply with environmental final
        governing standards for each foreign country where DoD maintains a substantial
        presence.

        Legislative History for Overseas Compliance. Executive Order 12088,
        “Federal Compliance with Pollution Control Standards,” October 13, 1978,
        directs DoD to establish environmental standards for U.S. facilities overseas.
        Executive Order 12088 requires Federal facility operations outside the U.S. to
        comply with “. . . environmental pollution control standards of general
        applicability in the host country . . . .” Public Law 101-510, “National Defense
        Authorization Act for Fiscal Year 1991,” section 342, as amended, requires that
        the Secretary of Defense “. . . develop a policy for determining applicable
        environmental requirements for military installations located outside the United
        States.” The public law also states that the policy should adequately protect the
        health and safety of military and civilian personnel assigned to overseas
        installations.

        Defense Overseas Environmental Policy. DoD published overseas policy in
        DoD Directive 6050.16, “Policy for Establishing and Implementing
        Environmental Standards at Overseas Installations” (Directive 6050.16) on
        September 20, 1991. Directive 6050.16 required DoD to establish and maintain
        an environmental baseline guidance document. Also, Directive 6050.16 requires
        that the DoD executive agent for a host nation issue final governing
        environmental standards for operations in that country. DoD cancelled
        Directive 6050.16 when implementing Instruction 4715.5 that provides
        management guidance for environmental compliance overseas.

        Instruction 4715.5 expands the guidance for governing standards, identifies the
        selection procedures for EEAs, and identifies the Deputy Under Secretary of
        Defense for Environmental Security (DUSD[ES]) as the selecting official. Also,
        Instruction 4715.5 directs the DUSD(ES) to identify the foreign countries needing


______________________________
       1
         Extending or going beyond national boundaries; e.g., European Union directives are binding on
         the member states. Member countries include Germany, Italy, and the United Kingdom.




                                                 2
     final governing standards and to assign an EEA for those foreign countries. The
     DUSD(ES) provides policy and guidance for overseas environmental compliance
     programs. The DUSD(ES) selected the Commander in Chief, U.S. Naval Forces,
     Europe, as the EEA for Italy. The EEA for Italy issued Final Governing Standards
     for Italy that implemented Directive 6050.16 policy. Since the cancellation of
     Directive 6050.16 in 1996, the EEA has not revised Final Governing Standards
     for Italy to implement Instruction 4715.5 policy.

     Baseline Guidance for Compliance Overseas. The DUSD(ES) first published
     the Overseas Environmental Baseline Guidance Document (OEBGD) in October
     1992. The OEBGD established baselines for environmental protection on DoD
     installations overseas and implemented Directive 6050.16 policy. DUSD(ES)
     reissued the OEBGD, to implement Instruction 4715.5, as DoD 4715.5-G,
     “Overseas Environmental Baseline Guidance Document,” March 15, 2000 and
     canceled the October 1992 version. Chapter 1 of the OEBGD provides an
     overview of criteria used to establish and maintain baseline guidance. Chapter 6
     discusses policy and procedures for hazardous waste management. The OEBGD
     standards include applicable portions of DoD environmental policies and U.S.
     environmental laws and regulations.

Objectives
     The overall evaluation objective was to determine the status of DoD
     environmental program requirements at overseas military facilities. Specifically,
     we assessed U.S. military compliance with governing environmental standards in
     foreign countries. Additionally, we assessed whether the hazardous material and
     hazardous waste programs met regulatory requirements and command needs in
     Europe. We also reviewed the management control program as it related to DoD
     environmental requirements and the management of hazardous material and
     hazardous waste in Europe. See Appendix A for a discussion of the evaluation
     scope and methodology and the review of the management control program.




                                       3
           Compliance with Italian Procedural and
           Administrative Hazardous Waste Laws
           According to Italian regulators, DoD civilian personnel violated Italian
           procedural (permitting) and administrative (reporting) hazardous waste
           laws. These violations occurred because DoD policy does not recognize
           host nation procedural and administrative requirements as applicable
           environmental standards and no interim guidance was provided as to how
           to respond to Italian regulatory enforcement actions. As a result, Italian
           regulators:

                  •   fined DoD civilian personnel,

                  •   threatened to shut down DRMO Aviano, and

                  •   threatened to sequester the property of the DoD Italian
                      hazardous waste contractors.

Procedural Compliance with Hazardous Waste Laws
    Compliance at DoD Facilities. DoD components and Defense agencies
    complied with country-specific environmental final governing standards when
    operating DoD facilities in the U.S. European Command. EEAs developed final
    governing standards for Germany (U.S. Army, Europe), Italy, and the United
    Kingdom (U.S. Air Forces, Europe) that met the DoD requirements in Instruction
    4715.5. However, Italy requires compliance with procedural (permitting) and
    administrative (reporting) waste management laws. DoD policy specifically
    excludes compliance with host nation procedural and administrative standards.
    Therefore, Italian regulators charged DoD civilian personnel with violations of
    Italian hazardous waste procedural and administrative laws.

    Italian Regulatory Inspections. The ecological unit of the Carabinieri, Italian
    national police, targeted DRMOs for noncompliance with Italian Legislative
    Decree No. 22 of February 5, 1997 (the Ronchi Decree). Without advance notice,
    the Carabinieri conducted inspections in February 1999 at DRMO Aviano
    (outside of Aviano Air Force Base), and in March 1999 at DRMO Sigonella (on
    Naval Air Station Sigonella in Sicily). Italian regional environmental officials
    and the Italian supervising prosecutor questioned DRMO employees about
    obtaining permits for operations as required by the Ronchi Decree. Also, Italian
    officials inspected waste management records at DRMO Sigonella. The
    Carabinieri charged the civilian DRMO chief at Aviano for operating an illegal
    waste management facility that collected and stored waste without authorization, a
    criminal violation of the Ronchi Decree. At DRMO Sigonella, the Carabinieri
    charged the civilian DRMO chief for failure to properly maintain waste
    management records and failure to make annual waste reports, two administrative
    violations of the Ronchi Decree.




                                      4
    Waste Management Law in Italy. The Ronchi Decree incorporates European
    Union directives in Italian waste management laws and imposes strict controls on
    waste generators, transporters, and disposal facilities. The Italian controls on
    waste include requirements for permits, manifests, and exact record keeping.
    Italian laws on manifesting and hazardous waste tracking require waste producers
    to procure and register manifests and file annual reports effective June 12, 1998.
    The ecological branch of the Carabinieri enforces the Ronchi Decree. Italian
    waste management laws before the Ronchi Decree required permits for hazardous
    waste, but authorities did not enforce requirements to obtain permits.

Policy for Hazardous Waste Permits and Reports
    Final Governing Standards for Italy. Violations of Italian hazardous waste
    laws occurred because DoD policy does not recognize host nation procedural and
    administrative requirements as applicable environmental standards. Instruction
    4715.5 defines applicable host nation environmental standards as specific
    management practices or standards to control environmental pollution that are, “. .
    . generally in effect and enforced against host-government and private sector
    activities.” Procedural and administrative requirements, such as permits, licenses,
    fees, fines, penalties, and other sanctions, are not included as applicable host
    nation environmental standards.

    Final Governing Standards for Italy, section 1-4.C., states, “. . . it is not
    appropriate for DoD components to seek permits or comply with Italian
    procedural requirements imposed on private entities.” DoD policy maintains that
    the Services and DRMS International do not need to hold permits for waste
    management activities in Italy. The standards do not direct DoD components to
    seek environmental permits or to submit annual waste reports that are required by
    the Ronchi Decree. However, DoD facility managers maintain hazardous waste
    records and provide waste management data to the appropriate Italian
    environmental authorities upon request.

    Status of Forces Agreement. DoD policy is based on the general principles of
    international law, and provisions of the North Atlantic Treaty Status of Forces
    Agreement. “The Agreement Between the Parties to the North Atlantic Treaty
    Regarding the Status of Their Forces,” June 19, 1951, (the Agreement) article II,
    states that the U.S. military forces and civilian components duty are to “respect”
    host nation laws. Although the Agreement does not define “respect,” the general
    understanding is to avoid actions that would disparage host nation laws. Claims
    provisions in the Agreement, article VIII,
    paragraph 5, are for negligent acts that cause damage to the host nation.
    Article VIII, paragraph 5.g., states that U.S. military forces or civilian components
    shall not be subject to enforcement proceedings of judgment arising from the
    performance of their official duties. General principles of sovereignty limit
    overseas Federal facilities compliance to substantive, not procedural, host nation
    requirements. DoD policy accomplishes substantive compliance or “respect” for
    host laws.

    Defense Policy Modification. DRMS International acknowledged the potential
    operational impact of the DoD policy for overseas environmental compliance in a


                                        5
June 1999 memorandum to the Defense Logistics Agency. DRMS International
stated that Italian regulators disagreed with DoD policy based on evolving Italian
environmental laws and the Carabinieri enforcement actions. The Italian
prosecutor in Aviano disagreed with DoD policy noting the lack of Italian military
exemption, and the location of DRMO Aviano on Italian territory. DRMS
International stated that DoD policy implementation created tensions in relations
with Italian officials. DRMS International acknowledged similar circumstances in
Japan, Spain, and Germany, and expects similar developments in remaining
European Union countries, and other locations where DRMS International
operates. Furthermore, DRMS International strongly advocated the modification
of DoD waste management policy and practices in Italy through correspondence
with the EEA. The EEA should update the Final Governing Standards for Italy to
prescribe procedures that resolve procedural and administrative regulatory
requirements for hazardous waste management.

Guidance for Responding to Host Nations. The EEA issued an interim
guidance message on “Hazardous Waste Shipment in Italy,” July 6, 1998, after
recognizing that changes for manifesting and reporting hazardous waste directly
affected procedures at DoD facilities in Italy. The EEA advised DoD facility
operators to procure and register manifests, in accordance with Italian procedures,
to continue transporting hazardous waste. Also, the EEA strongly advised using
active duty personnel to procure and sign manifests in an attempt to maintain the
best defensible position for employees under the Status of Forces provisions.

Italian regulatory enforcement actions prompted supplemental guidance from the
EEA in a message on “Environmental Compliance and Waste Management in
Italy,” March 30, 1999. The EEA advised U.S. installation commanders to initiate
dialog with their host Italian base commander and request assistance in applying
for permits and other procedural requirements. In preparation for meetings with
Italian base commanders, the EEA provided guidance for dialog in the initial
meeting on April 16, 1999. The EEA requested minutes from meetings with
Italian base commanders, notification of any difficulties with obtaining
cooperation, and consultation before payment of any permitting fees.

Dialog with Italian Authorities. Italian base commanders refused to obtain
permits for DoD components and Defense agencies. The EEA stated, in the
“Waste Management in Italy Status Report,” May 21, 1999, that the Italian base
commanders refused to sign permits and annual report forms. For DRMO
Aviano, the Italian base commander stated that the request did not comply with
the Ronchi Decree requirements that place responsibility for compliance with the
hazardous waste generators and facility managers. At Naval Air Station
Sigonella, the Italian base commander would not accept responsibility for
generating hazardous waste. For the Army Southern European Task Force in




                                   6
    Vicenza, the Italian base commander would not process Italian administrative
    documents for the U.S. because the waste generator (U.S. military) was required
    to submit the documents.

    EEA representatives met with the Italian Defense General Staff, environmental
    officer on June 2, 1999, to discuss environmental roles and responsibilities for the
    U.S. and Italian base commanders. As a result of the June 1999 meeting, the
    Italian Defense General Staff, Environmental Officer formally directed Italian
    base commanders to provide the regulatory liaison requested from U.S.
    installations. Subsequent EEA guidance advised U.S. commanders that Italian
    base commanders, or DoD military representatives with a cover letter from the
    Italian base commander, were to sign annual report forms. Guidance also advised
    U.S. commanders to immediately contact the EEA if Italian base commanders
    expressed an unwillingness to sign or submit permits on their behalf. DoD
    Instruction 4715.5 requires EEAs to consult with EUCOM on significant issues
    arising from DoD environmental policy. The EEA should continue to consult
    with EUCOM and establish guidance for responding to or avoiding enforcement
    actions resulting from the Ronchi Decree.

Impact of Host Nation Laws on DoD Operations in Europe
    Mission and Operation Impacts. Italian regulators fined DoD civilian personnel
    for criminal and administrative violations of Italian hazardous waste laws. Italian
    regulators also threatened to shut down DRMO Aviano, to compel full
    compliance with Italian hazardous waste laws at DRMOs, and to sequester
    contractor property. The alleged criminal and administrative violations carry
    potential fines ranging from about $30,000 to $180,000 for each charge. Local
    Italian environmental regulators advised DRMO Aviano employees in April 1999
    that applying for a permit could prevent the shut down of DRMO Aviano.

    DRMS International stated, in a June 1999 memorandum, that reducing operations
    at DRMO Aviano because of failure to obtain environmental permits would cause
    significant mission impact. DRMO Aviano is an accumulation point for all
    excess property in the Aviano area. Also, DRMO Aviano receives property and
    waste from other installations in the area, and provides mission critical support to
    U.S. installations fully engaged in contingency operations. Waste generation was
    high while U.S. forces supported North Atlantic Treaty Organization actions
    based at Aviano Air Base. In addition, available space for waste storage was also
    at a premium. Italian regulators threatened to continue their efforts to compel full
    compliance at DRMOs in Italy.

    Italian Regulator Response. The Italian prosecutor admitted that practices at
    DRMO Aviano did not appear to threaten human health or the environment.
    Under Italian waste management law, collecting and storing waste without
    authorization is a criminal offense. However, waste is difficult to define under the
    Ronchi Decree. Regulators define waste on a case-by-case basis using the history
    and status of each item. Since Italian regulators could not direct DRMO Aviano
    to obtain a permit, Italian regulators changed requirements for waste removal by
    Italian contractors. Italian regulators informed Italian hazardous waste removal



                                       7
   contractors that any attempt to remove waste from DRMO Aviano would result in
   sequestration of the contractor’s trucks and contents.

   Defense Efforts for Civilians. Officials at DRMS International have
   aggressively defended the actions of DoD employees and the activities at DRMO
   Aviano and DRMO Sigonella. DRMS International maintains that employees
   acted within their official duties, which is consistent with DoD environmental
   compliance policies. The Air Force and the Navy provided legal counsel for the
   DRMO civilian employees; however, the charges have not been dismissed.
   Consequently, DoD employees in Italy remain at risk of personal, criminal
   liability under Italian waste management practices until the Government of Italy
   recognizes that DoD is exempt from the authorization, registration and notice
   procedures of the Ronchi Decree. The risk of personal, criminal liability extends
   to all DoD employees engaged in generating and transporting hazardous waste,
   and employees responsible for hazardous waste facility management.

   Executive Agent and Theater Efforts. Although the EEA provided interim
   guidance for permitting and reporting issues, the EEA did not provide interim
   guidance for responding to enforcement actions. In December 1999, EUCOM
   made an informal request for EEAs to provide suggestions for theater guidance on
   responding to host nation enforcement actions. The EEA for Italy suggested
   procedures for responding to host nation enforcement actions in January 2000.
   EUCOM decided in June 2000 not to act on the informal request because EEAs
   are more effective in formulating guidance on responding to host nation
   enforcement actions. The EEA should provide interim guidance that prescribes
   the appropriate responses to Italian enforcement actions.

Summary
   The Italian Government requires adherence to Italian procedures under waste
   management laws in the Ronchi Decree. U.S. installations and DRMS
   International follow the Final Governing Standards for Italy when handling
   hazardous wastes. The Final Governing Standards for Italy state that compliance
   with Italian procedural (permitting) and administrative (reporting) laws is not
   appropriate. DoD policy does not require personnel to obtain permits for handling
   hazardous waste (procedural) or to file forms for annual waste reports
   (administrative). Although the EEA provided interim guidance for handling
   hazardous waste, Italian regulators brought criminal charges against the DRMO
   Aviano chief and administrative charges against the DRMO Sigonella chief for
   noncompliance with Italian law procedures.

   The EEA recognized that Italian law changes directly affected procedures at DoD
   facilities and provided supplemental guidance to respect Italian waste
   management laws. However, the EEA did not provide interim guidance for
   responding to possible enforcement actions. Tensions between Italian authorities
   and DoD personnel increased because DoD personnel did not comply with
   procedural and administrative Italian hazardous waste laws. Italian authorities
   threatened to shut down operations at DRMO Aviano and to compel full
   compliance with Italian laws by all DRMOs in Italy. In addition, Italian


                                      8
    authorities threatened to sequester contractor property if contractors attempted to
    remove hazardous waste. Implementation of the recommendations should resolve
    Italian regulatory requirements for hazardous waste management at DoD facilities
    in Italy, and reduce risks of prosecution against DoD civilian personnel for
    noncompliance with Italian waste laws.

Recommendations, Management Comments, and Evaluation
 Response
    We recommend that the DoD Environmental Executive Agent for Italy,
    Commander in Chief U.S. Naval Forces Europe:

           1. Issue revised Final Governing Standards for Italy that not only
    respect Italian hazardous waste laws, but also resolve procedural and
    administrative issues for compliance with Italian laws.

           2. Establish procedures for responding to host nation enforcement
    actions against DoD facilities and employees.

    Management Comments. The Commander in Chief, U.S. Naval Forces Europe,
    stated that they have implemented a strategy to minimize conflicts between Italian
    procedural and administrative requirements and DoD policy. This strategy will be
    reflected in the revised Final Governing Standards for Italy. The Commander in
    Chief, U.S. Naval Forces Europe, also stated that they have distributed procedures
    for responding to host nation enforcement action and plan to formally issue those
    procedures as Environmental Executive Agent guidance to U.S. forces operating
    in Italy. The complete text of management comments is in the Management
    Comments section.

    Evaluation Response. We asked for the date of publishing the Final Governing
    Standards for Italy. The office of the Commander in Chief stated that
    Components met during late October to discuss Final Governing Standards review
    procedures and timelines. The Final Governing Standards are projected for
    completion by April 2001. Publication of the Final Governing Standards is
    important to effective operations by field operating units.




                                       9
Appendix A. Evaluation Process

Scope
    We reviewed environmental policies, regulatory, and program requirements for
    the DoD environmental program in the U.S. European Command. We visited 25
    sites in Europe: 14 in Germany, 7 in Italy, and 4 in the United Kingdom.
    Specifically, we reviewed executive policy, Military Department regulations, and
    the process and execution procedures.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-Wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, but there is no applicable performance
    measure.

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following environmental functional area
    objective and goal.

           Environmental Functional Area. Objective: Achieve compliance with
           applicable Executive Orders and Federal, State, and inter-state, regional,
           and local statutory and regulatory environmental requirements.
           Goal: Number of new, open, unresolved and closed enforcement actions
           applicable environmental statutes. (ENV-2.1)

Methodology
    To accomplish the evaluation, we identified and analyzed existing requirements,
    policy, and guidance related to the DoD overseas environmental programs. We:

           •   conducted interviews, site visits, and data collection at the DoD, the
               Unified European Command, the Army, the Navy, the Air Force, the
               Defense Logistics Agency, and the Military Criminal Investigation
               Organization, Europe;

           •   researched environmental program requirements;

           •   reviewed implementation of the Services programs and the DRMS
               International program; and

           •   evaluated environmental program compliance.

    To review the environmental program management, we evaluated DoD policy and
    procedures on material management, waste disposal, program oversight, and


                                      10
    quality assurance. We also evaluated the impact of international agreements on
    the Service’s environmental program management in Europe. Additionally, we
    evaluated the effect changes in host nation environmental laws had on DoD
    hazardous waste program requirements. Finally, we examined the methods
    management used to monitor the hazardous material and hazardous waste
    programs.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    or statistical sampling procedures.

    Evaluation Type, Dates, and Standards. We performed this program
    evaluation from June 1999 through July 2000 in accordance with standards
    implemented by the Inspector General, DoD.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of management controls over the implementation of environmental
    programs in Europe. Specifically, we reviewed the adequacy of management
    controls over the final governing standards for compliance with host nation
    regulations. Because we did not identify a material weakness, we did not assess
    management’s self-evaluation.

    Adequacy of Management Controls. Management controls for implementing
    environmental program management and final governing standards were adequate
    as they applied to the evaluation objectives.

Prior Coverage
    During the last 5 years, the Inspector General, DoD, has issued Inspector General,
    DoD, Report No. 99-251, “The Army Environmental Program in Germany,”
    September 15, 1999, and Inspector General, DoD, Report No. D-2000-157, “DoD
    Hazardous Waste Management and Removal Services in the U.S. European
    Command,” June 28, 2000.




                                      11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Environmental Security)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Policy)

Joint Staff
Chairman, Joint Chiefs of Staff
  Director for Logistics (J-4)

Department of the Army
Assistant Secretary of the Army (Installations, Logistics and Environmental)
  Deputy Assistant Secretary of the Army (Environmental Safety and Occupational
      Health)
Auditor General, Department of the Army
Assistant Chief of Staff for Installation Management
Commander, U.S. Army, Europe and Seventh Army

Department of the Navy
Assistant Secretary of the Navy (Installation and Environment)
  Deputy Assistant Secretary of the Navy (Environment and Safety)
Auditor General, Department of the Navy
Deputy Chief of Naval Operations (Logistics)
  Environmental Protection Safety and Occupational Health Division
Naval Inspector General
Commander, U.S. Naval Forces Europe

Department of the Air Force
Deputy Assistant Secretary (Environmental Safety and Occupational Health)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Chief of Staff Installations and Logistics
  Environmental Division
Commander, U.S. Air Forces Europe



                                          12
Unified Command
Commander in Chief, U.S. European Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Logistics Support Command
      Commander, Defense Reutilization and Marketing Service
         Commander, Defense Reutilization and Marketing Service International

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          13
Department of the Navy Comments




                    15
Final Report
 Reference




Not included




               16
Evaluation Team Members

The Contract Management Directorate, Office of the Assistant Inspector
General for Auditing, DoD prepared this report.

Paul J. Granetto
William C. Gallagher
Michael R. Herbaugh
LTC George P. Marquardt, USA
Lorretta F. Swanson
Marcia L. Kilby
Joseph Kaseler
Sylvia Powell
